HHS/OIG, Audit -"Review of Ryan White Title I Funds Claimed by a Non-Profit Hospital Under Contract with the San Juan Eligible Metropolitan Area,"(A-02-02-05001)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Ryan White Title I Funds Claimed by a Non-Profit Hospital Under Contract with the San Juan Eligible Metropolitan
Area," (A-02-02-05001)
October 2, 2003
Complete Text of Report is available
in PDF format (703 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Ryan
White Title I payments totaling $2,564,680 made by the San Juan Eligible Metropolitan Area (EMA) to Ryder Memorial Hospital
(Ryder) for medical services rendered to HIV/AIDS patients during the period   March 1, 1998 through February
28, 2001 were for reasonable, allocable, and allowable costs.  We found that the San Juan EMA reimbursed Ryder a
total of $352,094 for services that were not reasonable, allocable, or allowable, as outlined in Federal guidelines issued
by the Office of Management and Budget.  We recommended financial adjustments and procedural improvements.  The
San Juan EMA concurred with our findings and recommendations.